                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

 Case Number: 113010005                                                                    Page 1 of 1



         This case was opened from an allegation 1 that a university2 professor3 was misusing funds from
         an NSF award4• We reviewed award information in NSF's files as well as financial information
         pertinent to the award provided by the university, which did not support the complainant's
         allegations. We talked to the individual5 who made the allegation, and he was unable to provide
         any specific information relevant to the allegations. We also talked to two individuals involved
         with the award, one of whom was identified by the complainant as having evidence to support
         his allegations, and both contradicted the allegations. Thus, we did not find any evidence of
         fraud, waste or abuse in this award. As a result, this I case is closed.




         1




NSF OIG Form 2 (11/02)
